Memorandum from the Office of the Inspector General



September 29, 2009

Janet C. Herrin, WT 10D-K
Jeffrey T. Parsley, EB 3G-C

FINAL REPORT – INSPECTION 2009-12695-01 – REVIEW OF CHEROKEE DAM
CAMPGROUND



At the request of the Senior Vice President, Office of Environment and Research, we
initiated reviews of the 11 Tennessee Valley Authority (TVA) managed campgrounds to
determine if (1) campgrounds are being operated in accordance with the program intent
and (2) campgrounds' operating controls are functioning as intended. This report
addresses our findings pertaining to the Cherokee Dam Campground.

We found that the campground was operating under the program intent, which is to
provide public areas for recreation. During our walkdown, we noted that 31 of the
40 campsites were occupied.1 We found that the basic operating controls were the
functions of the campground attendant, who is provided by the Retiree Resources
Corporation,2 and a campground host.3 In summary, we found the operating controls
appear to be functioning as intended and campground guidelines were generally being
complied with. However, we did note some minor overall program guideline
inconsistencies.

BACKGROUND

TVA operates some 100 public recreation areas throughout the Tennessee Valley,
including campgrounds, day-use areas, and boat launching ramps. TVA manages
11 campgrounds throughout the Valley and has set out specific campground rules in
various TVA documents to help guide the maintenance and operation of these
campgrounds. These documents include:

•     Stewardship Guideline 7.2.1 - TVA's Recreation Areas
•     Stewardship Guideline 7.1.4 - Developed Recreation Area Rules and Regulations
1
    At Cherokee Dam Campground there are a total of 41 campsites. However, one of these sites is occupied
    by the Campground Host, so there are only 40 rentable sites.
2
    Retiree Resources Corporation provides experienced retirees to support TVA projects and programs.
3
    The campground host is an individual who is allowed to stay at the campground free of charge in exchange
    for providing some oversight functions.
Janet C. Herrin
Jeffery T. Parsley
Page 2
September 29, 2009



•     Stewardship Guideline 7.1.1 - Administration of Fee Campgrounds and Pavilion
      Reservations
•     Campground Host Procedures and Campground Regulations Handbook (2008 Edition)
      (Host Handbook)
•     Resident Manager Procedures and Campground Regulations Manual (2009 Edition)
      (Resident Manager Manual)
•     Campground Fee Process provided by Facilities

According to Stewardship Guideline 7.2.1, the 11 TVA-managed campgrounds help
provide opportunities for public access to and enjoyment of the river system.

Cherokee Dam Campground is on the Holston River in East Tennessee, approximately
52 miles upstream from the point at which the Holston and French Broad Rivers converge
to form the Tennessee River. It contains 40 campsites with water and electric hookups.
Cherokee Dam Campground also has several amenities including (1) restrooms with
heated showers and flush toilets, (2) a dump station,4 (3) children's play equipment,
(4) picnic tables and grills, (5) a group pavilion which is available by reservation, (6) a
swimming beach, (7) boat ramps above and below Cherokee Dam, (8) lake and river
fishing, (9) a paved walking trail, and (10) bird watching.

All of the 11 TVA-managed campgrounds are available on a first-come, first-serve basis;
except for Barton Springs, Cherokee Dam, Mallard Creek, Loyston Point, and Melton Hill
campgrounds that operate on a lottery system to initially allocate campsites on opening day
at the start of camping season and then manage the remaining season on a first-come,
first-serve basis. TVA campgrounds charge the same camping rates and fees.
Specifically, during the time period we reviewed, TVA daily and monthly rates were:

•     For a campsite without water and electric hookups, $16 daily and $240 monthly.

•     For a campsite with water and/or electric hookups, $20 daily and $300 monthly.

•     For a campsite with water, electric, and sewer hookups, $24 daily and $360 monthly.

America the Beautiful Pass and older Golden Age and Golden Access Passport programs5
can be used at TVA campgrounds to obtain half-price rentals on daily campsites only.

Facilities Management provided us certain revenue, expense, and occupancy information
(i.e., the number of days the campsites were occupied) for fiscal years 2004 – 2008 for the
TVA-managed campgrounds, and that information is summarized in Table 1 for Cherokee
Dam Campground.
4
    A dump station is a place where camper wastewater may be discharged into a sanitary sewer system in a
    safe and responsible way.
5
    America the Beautiful Access Passes and older Golden Access Passes are for U.S. Citizens or permanent
    residents with permanent disabilities. America the Beautiful Senior Passes and older Golden Age Passes
    are for U.S. Citizens or permanent residents age 62 or over. These passes can be purchased through the
    National Park Service and are lifetime passes.
Janet C. Herrin
Jeffery T. Parsley
Page 3
September 29, 2009



                                                Table 1
                             2004           2005        2006             2007           2008
Revenue                $   51,064     $   50,195     $   62,172    $   69,118     $   61,283
Expense                $   22,009     $   14,091     $   29,953    $   36,446     $   39,635
Occupancy                    4317           4779          6465           6423           6260



Four of the 11 TVA-managed campgrounds have a Resident Manager because the
campground is not located on a dam reservation. The Resident Manager is to assist TVA
in supplying a safe, hazard-free environment for persons using the campgrounds. The
Resident Manager is responsible for registering campers, operating the gates, providing
information to campers, picking up litter, and various other tasks. Cherokee Dam
Campground is a self-service6 campground and does not have a Resident Manager, but
utilizes a Retiree Resources Corporation employee to collect money and provide
oversight. In addition to the campground attendant, Cherokee Dam Campground also
uses a volunteer campground host to help provide oversight, and TVA Facilities
Management takes care of maintenance and upkeep, such as lawn care and bathhouse
repairs.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our review of Cherokee Dam Campground were to determine if (1) the
campground is being operated in accordance with TVA’s program intent and (2) the
campground's operating controls are functioning as intended.

To achieve our objectives, we:

•     Interviewed key TVA personnel and reviewed related TVA policies, processes,
      procedures, and guidelines to identify program intent and operational controls.

•     Reviewed TVA-managed campground assessments as prepared by Land and Water
      Stewardship and Facilities, including scorecards, assessment briefing papers, and
      electrical reports to identify potential areas of concern.

•     Conducted a walkdown of Cherokee Dam Campground to determine whether
      guidelines are being followed and controls are functioning as intended. During the
      walkdown, we reviewed daily pay envelopes and receipts to verify payment by
      campers identified during the walkdown. We also checked some randomly selected
      pay envelopes to determine if campers paid appropriately.

•     Compared a sample of remittance registers for June 2009 submitted to Facilities for
      deposit with records maintained at Cherokee Dam Campground to determine whether
      revenue was accurately reported or discrepancies exist.

6
    These are campgrounds without a Resident Manager which operate on the honor system. Fees are placed
    in a lockbox and collected by the designated campground attendant and forwarded on to TVA.
Janet C. Herrin
Jeffery T. Parsley
Page 4
September 29, 2009



•     Reviewed historical occupancy reports and revenue information to identify any
      potential control weaknesses.

The scope of this inspection included activities and operating controls as related to
Cherokee Dam Campground. This Inspection was conducted in accordance with the
"Quality Standards for Inspections."7

FINDINGS

We found that Cherokee Dam Campground was operating in accordance with the program
intent, which is to provide recreation for the public. Additionally, we found that the basic
operating controls were the functions of the campground attendant, who is provided by the
Retiree Resources Corporation, and the volunteer campground host. The operating
controls appear to be functioning as intended. Furthermore, the campground guidelines
were generally being complied with. However, we did note some inconsistencies among
applicable TVA guidelines.

PROGRAM INTENT

We observed campers in 31 of the 40 campsites during our visit to Cherokee Dam
Campground. We viewed campers enjoying their campsites and public use areas. The
campground appeared to be well maintained and in good condition. Figure 1 shows some
of the campsites at Cherokee Dam Campground.

                                                    Figure 1




7
    The Quality Standards for Inspections issued by the President’s Council on Integrity and Efficiency,
    Executive Council on Integrity and Efficiency, provide standards for conducting inspections in the Inspector
    General community.
Janet C. Herrin
Jeffery T. Parsley
Page 5
September 29, 2009



OPERATING CONTROLS

Cherokee Dam Campground utilizes a Retiree Resources Corporation employee to act as
a campground attendant to collect money and provide oversight. The functions of this
campground attendant act as the operating controls for the campground. From review of
the campground attendant's job description and discussions with the campground
attendant on additional steps performed, the following processes are to be completed:

•     Unlock vault and collect payment envelopes multiple times weekly.
•     Review amount of money submitted for accuracy.
•     Verify all occupied campsites have been paid for.
•     Approach campers that have not paid and collect money owed.
•     Track and fill out occupancy reports.
•     Track the campers' length of stay.
•     Convert all cash collected to money orders and forward all payments (including
      checks) to TVA with a remittance report detailing weekly total.

In prior years at Cherokee Dam Campground, and at other campgrounds, TVA has hired
an intern to complete the processes currently being performed by the campground
attendant at Cherokee Dam Campground. The Retiree Resources Corporation employee
works at Cherokee Dam Campground for 6 months out of the year.8 For the rest of the
camping season, the Maintenance Foreman for Facilities at Cherokee Dam completes the
camper attendant's processes to keep the operating controls functioning continuously.

In addition, Cherokee Dam Campground also relies on their volunteer campground host to
fulfill some of the campground duties and provide oversight. Based upon our review of
key guidelines, along with discussions with the campground host, the duties and
responsibilities of the campground host are as follows:

•     Tracks and fills out occupancy reports.
•     Tracks the campers' length of stay.
•     Replaces bathroom paper products and supplies.
•     Informs the Recreation Representative of any disturbance, misuse, or accident.

As part of our review, we (1) reviewed camper payments, (2) performed a walkdown of the
campground to assess compliance with campground guidelines, and (3) compared all
identified manuals and guidelines for consistency. While we found the operating controls
were functioning as intended, some control improvement opportunities may exist
pertaining to overall program guideline inconsistencies.


8
    The same campground attendant also performs all duties at Douglas Dam Tailwater Campground and
    Douglas Dam Headwater Campground.
Janet C. Herrin
Jeffery T. Parsley
Page 6
September 29, 2009



Camper Payments

During our walkdown, we noted that 31 of the 40 campsites were occupied. The
campground attendant opened the vault and showed us the envelopes that had been
submitted. For the campsites not paid for in the vault, the campground attendant was able
to provide us documentation that the campsites had been previously paid for. Payments
were noted for all occupied campsites. In addition, we spot checked three envelopes from
the vault and all contained the amount listed on the outside of the envelope.

No discrepancies were identified when we compared our judgmentally selected sample of
remittance registers from June 2009, provided by Facilities, to the documentation
maintained with the campground attendant. In addition, our review of documentation and
discussion with the campground attendant found that length of stay guidelines are being
monitored and enforced.

These observations indicate that the operating controls tested are meeting their intended
function.

Campground Guideline Compliance

We performed a walkdown of Cherokee Dam Campground, and we found it to be
generally operating in accordance with the guidelines. We created a checklist based upon
(1) Stewardship Guideline 7.1.4 - Developed Recreation Area Rules and Regulations,
(2) Host Handbook, and (3) Resident Manager Manual. We used the checklist during our
walkdown to identify whether the campground was in compliance with the guidelines. We
found the campground to be clean, well-maintained, and based on our walkdown,
operated effectively. Based on the specific criteria in the guidelines, we identified a few
noncompliances. They are provided for informational purposes only, and they do not
require a response or actions from management. The only noncompliances found were:

• A few minor instances where trash was outside of designated disposal areas.

• A nail had been driven in a tree, as shown below in Figure 2.
 
                                         Figure 2
Janet C. Herrin
Jeffery T. Parsley
Page 7
September 29, 2009



We also reviewed the scorecard9 for Cherokee Dam Campground. On the scorecard, it
was noted that the campground could use fresh pavement. During our walkdown, we
noted the pavement was still in poor condition as mentioned on the scorecard. Large
portions of the pavement contained noticeable cracks and/or vegetation intrusion, as
shown in Figures 3 and 4.

                                                Figure 3




                                                Figure 4




9
    The scorecards represent quick evaluations of the campgrounds. They are completed by Land and Water
    Stewardship personnel.
      Janet C. Herrin
      Jeffery T. Parsley
      Page 8
      September 29, 2009



      Guideline Alignment and Clarity

      During our reviews of the 11 TVA-managed campgrounds, we noted some inconsistencies
      among the various TVA guidelines utilized for the campgrounds. The detailed findings,
      recommendations, and management's planned actions were addressed in Inspection
      2009-12695-02 – Review of Douglas Dam Headwater Campground.

                            -       -      -      -       -      -      -

      Based on the results of this review and since the findings and recommendations regarding
      overall program guideline inconsistencies were addressed in a separate report, this report
      does not include any recommendations and is to be used for informational purposes only.
      Accordingly, no response is necessary.

      Information contained in this report may be subject to public disclosure. Please advise us
      of any sensitive information in this report which you recommend be withheld.

      If you have any questions or wish to discuss our observations, please contact Gregory C.
      Jaynes, Deputy Assistant Inspector General, Inspections, at (423) 785-4810. We
      appreciate the courtesy and cooperation received from your staff during the inspection.




(For) Robert E. Martin
      Assistant Inspector General
       (Audits and Inspections)
      ET 3C-K

      MLL:SDB
      Attachment
      cc (Attachment):
           Peyton T. Hairston, Jr., WT 7B-K
           Tom D. Kilgore, WT 7B-K
           John E. Long, Jr., WT 7B-K
           Richard W. Moore, ET 4C-K
           Anda A. Ray, WT 11A-K
           Emily J. Reynolds, OCP 1L-NST
           Ronald J. Williams, CTR 2C-M
           OIG File No. 2009-12695-01
